             September 9, 2002

             MEMORANDUM

             FOR:             M/AS, Roberto J. Miranda

             FROM:            IG/A/ITSA, Melinda G. Dempsey /s/

             SUBJECT:         Risk Assessment of Major Functions Within the Office of the
                              Director of the Office of Administrative Services, Bureau for
                              Management
                              (Report No. A-000-02-001-S)

             This memorandum is our report on the subject risk assessment. Although
             this is not an audit report, this report contains suggestions for your
             consideration. We have reviewed your comments, and they are included as
             Appendix II. I appreciate the cooperation and courtesy extended to my staff
             during the risk assessment.


Background   The Office of Administrative Services, Bureau for Management, (M/AS)
             provides logistical support services and administrative services worldwide
             and is responsible for functions costing approximately $40 million annually.
             It is comprised of the Office of the Director and four divisions:

             •   Consolidation, Property and Services Division,1
             •   Information and Records Division,2
             •   Overseas Management Support Division,3 and
             •   Travel and Transportation Division.4

             During the past decade, the Office of Inspector General has performed few
             audits of the Office of Administrative Services’ functions. In addition, the

             1
               See risk assessment Report No. A-000-02-002-S.
             2
               See risk assessment Report No. A-000-02-003-S.
             3
               See risk assessment Report No. A-000-02-004-S.
             4
               See risk assessment Report No. A-000-02-005-S.



                                                                                     Page 1 of 8
Office of Administrative Services has received limited external reviews and
evaluations from other sources. Given the lack of external independent
reviews, including audits, we performed risk assessments of the major
functions of the Office of the Director of the Office of Administrative
Services.

The General Accounting Office’s “Standards for Internal Control in the
Federal Government” (November 1999) note that internal controls should
provide reasonable assurance that agency objectives are being achieved,
operations are effective and efficient, and assets are safeguarded against loss.
Internal controls consist of the following five interrelated components.
These components are the minimum level for internal control and provide
the basis against which internal control is to be evaluated.

1. Management and employees should establish and maintain a control
   environment throughout the agency that sets a positive and supportive
   attitude toward internal control and conscientious management.
2. Internal control should provide for a risk assessment of the risks the
   agency faces from both external and internal sources.
3. Internal control activities should be effective and efficient in
   accomplishing the agency’s control objectives and help ensure that
   management’s directives are carried out.
4. Information should be recorded and communicated to management and
   others within the agency who need it and in a form and within a time
   frame that enables them to carry out their internal control and other
   responsibilities.
5. Internal control monitoring should assess the quality of performance over
   time and ensure that the findings of audits and other reviews are
   promptly resolved.

This review focused on the second component—risk assessment. The GAO
Standards note that the specific risk analysis methodology used can vary
because of differences in agencies’ missions and the difficulty in
qualitatively and quantitatively assigning risk levels. This review assigned a
risk exposure of high, moderate, or low for each major function. A higher
risk exposure simply indicates that the particular function is more vulnerable
to its program objectives not being achieved or irregularities occurring.
Appendix I describes in detail our risk assessment scope and methodology.




                                                                          Page 2 of 8
Discussion   The Office of the Director of the Office of Administrative Services, Bureau
             for Management, (M/AS) is responsible for the following three major
             functions.5 Our assessments of the risk exposure for each of these major
             functions are described below.

                            Function Description                        Risk Exposure
                 Parking—Management of the parking
                 program for the Ronald Reagan Building                      High
                                         Risk Assessment Factors
                 • Fiscal year 2001 USAID cost for parking was $667,000 for 324
                    parking spaces within the Ronald Reagan Building—over $2,000 on
                    average for each parking space. This does not include an additional
                    $780 charged to carpool permit holders.
                 • The management of parking directly affects the allocation of an
                    employee benefit and, thereby, the perception of evenhandedness.
                 • Approximately 20 percent of one staff member’s time is used to
                    manage the allocation of Ronald Reagan Building parking spaces.
                 • According to draft policy, the allocation of parking spaces is roughly
                    allocated into the following categories: general carpools (45%),
                    individual bureau allocations (42%), disabled employees (7%),
                    executives (3%), and official vehicles (3%).
                 • Clear ranking factors are published to evaluate general carpool
                    applications.
                 • Bureaus allocate their own parking spaces.
                 • Documented internal control procedures for managing the parking
                    program are out-of-date, from 1997.
                 • The current Automated Directives System (ADS) 514, “Parking
                    Program Administration”, is out-of-date, but is in the process of
                    being finalized. The ADS chapter was last certified as current in
                    January 1997. It is based on parking at the Department of State,
                    rather than USAID’s current occupancy at the Ronald Reagan
                    Building.




             5
              Our risk assessments only covered major functions. In addition to major functions
             described in this report, the Office of the Director also is responsible for overall
             management, oversight, and coordination.




                                                                                               Page 3 of 8
            Function Description                        Risk Exposure
ICASS—Participation in the policy functions
of the Interagency Working Group for
International Cooperative Administrative
Support Services (ICASS)                                      Low
                         Risk Assessment Factors
• ICASS is a cost distribution system to ensure that federal agencies
    reimburse one another for costs of common service functions
    primarily in overseas locations.
• USAID’s fiscal year 2001 ICASS costs were $33 million, which was
    4 percent of the total of $738 million charged to all federal agencies.
    However, Division staff do not control ICASS dollar allocations.
• One staff member with approximately 15 years experience
    represents USAID on the Interagency Working Group for ICASS.
• Two staff members represent USAID on Interagency Working
    Group committees for (1) budget, personnel, and awards and (2)
    handbook, training, studies, and information technology.

           Function Description                        Risk Exposure
Rental payments review—Review of rental
payments for the Ronald Reagan Building
and other USAID-occupied facilities                         High
                        Risk Assessment Factors
• Rental payments for seven different facilities from four different
   government agencies account for fiscal year 2001 costs of $31.4
   million. The $31.4 million in rental payments is approximately 80
   percent of the $40 million budget for the Office of Administrative
   Services. Rent for the Ronald Reagan Building alone accounts for
   $30.7 million in payments to the General Services Administration.
• One staff member has been responsible for ensuring the accuracy of
   USAID rental payments. Bills from the General Services
   Administration and other government agencies at times contain
   errors that have to be reconciled. The staff person has effectively
   identified numerous instances of inaccurate billings resulting in
   substantial savings to USAID over the last five years.
• No contingency arrangement is in place for performing this function
   in the event of an extended absence of this staff member.
• Staff member did not receive formal training for the position.
• Training for the function is not standardized.
• Internal control procedures for performing the function are not
   documented.
• Position description does not describe functional responsibilities.




                                                                     Page 4 of 8
Conclusion   Our risk assessments of the Office of the Director of the Office of
             Administrative Services, Bureau for Management, (M/AS) covered three
             functions and reached the following conclusions.

                                                                  Risk Exposure
                         Function Description                 High    Moderate          Low
                 Parking—Management of the parking
                 program for the Ronald Reagan Building        !
                 ICASS—Participation in the policy
                 functions of the Interagency Working
                 Group for International Cooperative                                    !
                 Administrative Support Services (ICASS)
                 Rental payments review—Review of rental
                 payments for the Ronald Regan Building
                 and other USAID-occupied facilities
                                                               !
             Based on these risk assessments, we suggest that the Office of Administrative
             Services focus its efforts to mitigate the higher risk associated with the
             functions of (1) management of the parking program and (2) review of rental
             payments for the Ronald Regan Building and other USAID-occupied
             facilities. Specifically for the parking program, we suggest that the Office:

             •    update the documented internal control procedures for managing the
                  parking program and the ADS chapter 514, “Parking Program
                  Administration”.

             Specifically, for the review of rental payments, we suggest that the Office:

             •    develop written internal control procedures,
             •    update the position description to reflect responsibilities,
             •    standardize training requirements, and
             •    establish a contingency arrangement for performing this function in the
                  event of an extended absence of the staff member.

             The Office of Administrative Services management agreed with our risk
             assessments and our suggested courses of action. The Office of
             Administrative Services noted in their comments on the draft report (see
             Appendix II) that these assessments of vulnerabilities were an opportune
             first step for the business transformation urged by the new Assistant
             Administrator for the Management Bureau.




                                                                                   Page 5 of 8
                                                                                       Appendix I


Scope and     Scope
Methodology
              The Office of Inspector General, Information Technology and Special
              Audits Division, conducted a risk assessment of major functions within the
              Office of the Director of the Office of Administrative Services, Bureau for
              Management (M/AS). This risk assessment was not an audit. The risk
              assessment covered operations principally for fiscal year 2001. The risk
              assessment was conducted at the USAID headquarters in Washington, D.C.
              from October 12, 2001 to February 14, 2002.

              Our risk assessments of the Office of the Director’s major functions have the
              following limitations in their application.

              •   First, we assessed risk at the major function level only, not at the
                  Division or Office level.
              •   Second, we assessed risk only. Our risk assessments were not sufficient
                  to make definitive determinations of the effectiveness of internal controls
                  for major functions. Consequently, we did not generally (a) assess the
                  adequacy of internal control design, (b) determine if controls were
                  properly implemented, and (c) determine if transactions were properly
                  documented. If we were able to make these types of determinations
                  within the scope of our work, we reported on them accordingly as part of
                  our risk exposure assessments.
              •   Third, higher risk exposure assessments are not definitive indicators that
                  program objectives were not being achieved or that irregularities were
                  occurring. A higher risk exposure simply indicates that the particular
                  function is more vulnerable to such events.
              •   Fourth, risk exposure assessments, in isolation, are not an indicator of
                  management capability due to the fact that risk assessments consider
                  both internal and external factors, some being outside the span of control
                  of management.
              •   Fifth, comparison of risk exposure assessments between organizational
                  units is of limited usefulness due to the fact that risk assessments
                  consider both internal and external factors, some being outside the span
                  of control of management.

              Methodology

              We interviewed officials as well as reviewed related documentation of major
              functions performed by the Office of the Director. These documents covered
              background, organization, management, budget, relevant laws and
              regulations, staffing responsibilities, prior reviews, internal controls, and
              risks (i.e., vulnerabilities). Our review of the Office of the Director
              documentation was limited and judgmental in nature and conducted
              principally to confirm oral attestations of management.


                                                                                       Page 6 of 8
We identified the Office of the Director’s major functions using the input of
the Division Director and based on the significance and sensitivity of each
major function. We determined risk exposure for all major functions in each
division, e.g., the likelihood of significant abuse, illegal acts, and/or misuse of
resources, failure to achieve program objectives, and noncompliance with
laws, regulations and management policies. We assessed overall risk as high,
moderate, or low. A higher risk exposure simply indicates that the particular
function is more vulnerable to its program objectives not being achieved or
that irregularities were occurring. We considered the following key steps in
assessing risk:

(a)    determined significance and sensitivity;
(b)    evaluated susceptibility of failure to attain program goals,
       noncompliance with laws and regulations, inaccurate reporting, or
       illegal or inappropriate use of assets or resources;
(c)    were alert to "red" flags such as a history of improper administration
       or material weaknesses identified in prior audits/internal control
       assessments, poorly defined and documented internal control
       procedures, or high rate of personnel turnover;
(d)    considered management support and the control environment;
(e)    considered competence and adequacy of number of personnel;
(f)    identified and understand relevant internal controls, and
(g)    determined what is already known about internal control effectiveness.

These risk assessments were not sufficient to make definitive determinations
of the effectiveness of internal controls for major functions. As part of the
review methodology, we did (a) identify, understand, and document (only as
necessary) relevant internal controls and (b) determine what was already
known about the effectiveness of internal controls. However, we did not
generally (a) assess the adequacy of internal control design, (b) determine if
controls were properly implemented, nor (c) determine if transactions were
properly documented. In some cases, we were able to make these assessments
and reported on them accordingly as part our risk exposure assessments.




                                                                         Page 7 of 8
                                                                    Appendix II

Management
Comments
                                                   March 19, 2002



             MEMORANDUM

             TO:          Melinda Dempsey, IG/A/ITSA

             FROM:        Roberto J. Miranda, M/AS/OD

             SUBJECT:   Risk Assessment of Major Functions Within the
                        Office of the Director of the Office of
                        Administrative Services
                        (Report No. A-000-02-xxx-S)


                  M/AS/OD worked closely with the Inspector General's
             office on this survey believing that this assessment of
             vulnerabilities was an opportune first step on the way to
             the business transformation urged by the new Assistant
             Administrator for the Management Bureau. We concur in
             the assessment of risk and recommendations.

                  Parking: The ADS 514 Chapter, “Parking Program
             Administration” is being updated. It is expected that it
             will go out for final clearance before the end of April.

                  Rental Payments: M/AS/OD will develop written
             internal control procedures, update the PD to reflect
             responsibilities, and establish a contingency arrangement
             for performing this function in the event of an extended
             absence of the staff member.

                  In closing, M/AS/OD appreciates the professional
             assistance, courtesy and help of the IG staff,
             particularly as we work to implement your
             recommendations.




                                                                    Page 8 of 8
